               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Controls Over the
        Premium Forwarding Service –
        Point-of-Service Retail System

                        Audit Report




                                              December 2, 2013
Report Number IT-AR-14-002

     We did not post this report due to concerns with information
           protected under the Freedom of Information Act
